AUDIT OF THE OFFICE OF JUSTICE PROGRAMS GRANTS
  AWARDED TO THE UNIVERSITY OF NORTH TEXAS
             HEALTH SCIENCE CENTER
               FORT WORTH, TEXAS




           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


           Audit Report GR-60-11-010
                   April 2011
AUDIT OF THE OFFICE OF JUSTICE PROGRAMS NATIONAL
   INSTITUTE OF JUSTICE GRANTS AWARDED TO THE
 UNIVERSITY OF NORTH TEXAS HEALTH SCIENCE CENTER
                FORT WORTH, TEXAS

                            EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has completed an
audit of Grant No. 2008-DN-BX-K157 and Grant No. 2009-DN-BX-K164,
totaling $5,057,900, awarded to The University of North Texas Health
Science Center (UNTHSC) by the Office of Justice Programs (OJP) National
Institute of Justice (NIJ). Both grants were awarded under the Using DNA
Technology to Identify the Missing project.

       According to OJP’s website, they provide innovative leadership to
federal, state, local, and tribal justice systems by disseminating state of the
art knowledge and practices across America, and providing grants for the
implementation of these crime fighting strategies. The NIJ is the research,
development, and evaluation agency of the Department of Justice, and
provides objective, independent, evidence based knowledge and tools to
meet the challenges of crime and justice, particularly at the state and local
levels. An area of focus is DNA technology which has increasingly become a
vital tool in the criminal justice system.

      The University of North Texas Center for Human Identification,
(UNTCHI) which is housed at the UNTHSC, receives federal funding to
analyze DNA samples from both unidentified remains as well as reference
samples submitted by family members of missing persons to law
enforcement agencies nationwide. The UNTHSC is one of only nine facilities
in the nation with access to the FBI’s next-generation CODIS 6.0 DNA
software. 1 The UNTCHI, with support from the NIJ, has become a
recognized national center providing scientific and technical support to law
enforcement agencies, medical examiners, and crime labs throughout the
country.

      The goal of the Using DNA Technology to Identify the Missing grants is
to: (1) assist eligible entities in performing DNA analysis on unidentified
human remains and reference samples to support the efforts of states and

      1
         CODIS is the FBI Laboratory’s Combined DNA Index System and it blends forensic
science and computer technology into an effective tool for solving crime.
units of local governments to identify missing persons, and (2) enter
resulting DNA profiles into the FBI’s National DNA Index System (NDIS). 2

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel and
indirect-costs; (4) budget management and control; (5) matching;
(6) property management; (7) program income; (8) financial status and
progress reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of subgrantees and contractors. We
determined that matching costs, program income, subgrantees, and
contractors were not applicable to these grants.

      As of September 15, 2010, the UNTHSC had been reimbursed
$2,739,484 of the $5,057,900 awarded under the two grants covered by our
audit. We examined the UNTHSC’s accounting records, financial and
progress reports, and operating policies and procedures and found the
following:

   •   The expenditure transactions tested were properly authorized, included
       in the approved grant budget, and accurately recorded in the
       accounting records.

   •   Unallowable salary expenses totaling $28,030 were charged to the
       grant for a position that was not included in the approved grant
       budgets.

   •   Unallowable salary expenses totaling $94,844 were charged to the
       grant for an employee whose salary did not comply with a special
       condition.

   •   Unallowable labor charges totaling $7,859 for unauthorized time
       charged to the grant.




       2
          The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy,
and enables the laboratories participating in the program to exchange and compare DNA
profiles on the national level.

                                             ii
   •   Indirect cost transaction calculations tested were generally accurate. 3

   •   Financial Reports tested were accurate and generally submitted in a
       timely manner.

   •   Required Categorical Progress Reports (Progress Reports) tested
       contained all required program performance statistical data and were
       submitted in a timely manner. However, we could not verify the
       accuracy of the data in the Progress Reports because no supporting
       documentation was maintained.

   •   The UNTHSC’s internal control environment did not reveal any
       significant weaknesses.

      Our report contains four recommendations to address the unallowable
salary expenses, unauthorized time charged to the grant, and the lack of
supporting progress report documentation, which is discussed in detail in the
Findings and Recommendations section of this report. Our audit objectives,
scope, and methodology are discussed in Appendix I.




       3
         Due to an accounting process limitation, UNTHSC did not fully segregate the
applicable project-related expenditures to determine indirect costs charged to Grant No.
2008-DN-BX-K157. Instead, UNTHSC applied a reduced indirect cost rate to all project
related expenditures. This approach resulted in charging indirect costs to the grant in an
amount that conformed with the approved budget. This process was changed to fully
segregate and apply the approved indirect cost rate to applicable transactions for Grant No.
2009-DN-BX-K164.

                                             iii
                                TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
     Background .......................................................................... 2
          Program Background ....................................................... 2
          The University of North Texas Health Science Center ........... 2
     Our Audit Approach ............................................................... 3
FINDINGS AND RECOMMENDATIONS........................................ 4
     Internal Control Environment ................................................. 4
          Single Audit.................................................................... 4
          Financial Management System .......................................... 4
     Drawdowns .......................................................................... 5
     Grant Expenditures ............................................................... 5
          Personnel Costs .............................................................. 5
     Budget Management and Control ............................................ 7
     Indirect Costs ....................................................................... 7
     Reports ............................................................................... 8
     Compliance with Grant Requirements ...................................... 8
     Program Performance and Accomplishments ............................ 9
     Conclusion ..........................................................................10
     Recommendations ...............................................................11
OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 12
SCHEDULE OF DOLLAR-RELATED FINDINGS ........................... 14
OJP RESPONSE TO THE DRAFT REPORT .................................. 15
GRANTEE RESPONSE TO THE DRAFT REPORT.......................... 18
OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
OF ACTIONS NECESSARY TO CLOSE THE REPORT ................... 21
 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS NATIONAL
   INSTITUTE OF JUSTICE GRANTS AWARDED TO THE
 UNIVERSITY OF NORTH TEXAS HEALTH SCIENCE CENTER
                 FORT WORTH, TEXAS

                             INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit of Grant Nos. 2008-DN-BX-K157 and 2009-DN-BX-K164, totaling
$5,057,900, awarded to The University of North Texas Health Science Center
(UNTHSC) by the Office of Justice Programs (OJP) National Institute of
Justice (NIJ). Both grants were awarded under the Using DNA Technology to
Identify the Missing project. The details related to each award included in
our audit are shown in Exhibit 1.

EXHIBIT 1. GRANTS AWARDED TO THE UNIVERSITY OF NORTH TEXAS
           HEALTH SCIENCE CENTER BY THE OFFICE OF JUSTICE
           PROGRAMS NATIONAL INSTITUTE OF JUSTICE
                             AWARD         AWARD
     GRANT AWARD                                       AWARD AMOUNT
                           START DATE     END DATE

   2008-DN-BX-K157         10/01/2008     06/30/2010   $ 2,552,511

   2009-DN-BX-K164         10/01/2009     05/31/2011      2,505,389
                                              Total:   $ 5,057,900
Source: Grant Management System

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel and indirect
costs; (4) budget management and control; (5) matching; (6) property
management; (7) program income; (8) financial status and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of subgrantees and contractors. We
determined that matching costs, property management, program income,
subgrantees, and contractors were not applicable to these grants.




                                    -1-
Background

       According to OJP’s website, they provide innovative leadership to
federal, state, local, and tribal justice systems by disseminating state of the
art knowledge and practices across America, and providing grants for the
implementation of these crime fighting strategies. Due to the fact that most
of the responsibility for crime control and prevention falls to law enforcement
officers in states, cities, and neighborhoods, the federal government can be
effective in these areas only to the extent that it can enter into partnerships
with these officers. Therefore, OJP does not directly carry out law
enforcement and justice activities. Instead, OJP works in partnership with
the justice community to identify the most pressing crime related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

       The NIJ is the research, development, and evaluation agency of the
Department of Justice, and they provide objective, independent, evidence-
based knowledge and tools to meet the challenges of crime and justice,
particularly at the state and local levels. An area of focus is DNA technology
which has increasingly become a vital tool in the criminal justice system. In
order to increase and improve the use of this technology, in FY 2004 the
President announced a 5 year, billion dollar initiative, the President’s DNA
Initiative. One of the goals of the President’s DNA Initiative is the use of
DNA for missing person’s cases and identifying human remains.

Program Background

       The goal of the Using DNA Technology to Identify the Missing grants is
to: (1) assist eligible entities in performing DNA analysis on unidentified
human remains and reference samples to support the efforts of states and
units of local governments to identify missing persons, and (2) enter
resulting DNA profiles into the FBI’s National DNA Index System (NDIS). 1

The University of North Texas Health Science Center

      The UNTHSC, Fort Worth, is one of the nation's distinguished graduate
academic health science centers, dedicated to education, research, patient
care, and service. It opened in 1970 as the Texas College of Osteopathic
Medicine, and with the establishment of the Graduate School of Biomedical


       1
          The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy,
and enables the laboratories participating in the program to exchange and compare DNA
profiles on the national level.


                                           -2-
Sciences in 1993, the name of the institution was changed to the University
of North Texas Health Science Center at Fort Worth.

       A 33-acre, 1.2 million square-foot campus located in Fort Worth's
cultural district, the UNTHSC has a $220 million annual budget and
contributes approximately $500 million into Fort Worth's economy annually.
The UNTHSC has a combined faculty of more than 400, a staff of more than
1,400, and an additional 750 part-time and adjunct faculty from other
institutions and the community.

      The University of North Texas Center for Human Identification,
(UNTCHI) which is housed at the UNTHSC, receives federal funding to
analyze DNA samples from both unidentified remains as well as reference
samples submitted by family members of missing persons to law
enforcement agencies nationwide. The UNTHSC is one of only nine facilities
in the nation with access to the FBI’s next-generation CODIS 6.0 DNA
Software. 2 The UNTCHI, with support from the NIJ, has become a
recognized national center providing scientific and technical support to law
enforcement agencies, medical examiners, and crime labs throughout the
country.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

      In conducting our audit, we performed sample testing of grant
expenditures, reviewed the timeliness and accuracy of Financial Reports and
Progress Reports, evaluated performance related to grant objectives, and
reviewed the internal controls of the financial management system.

      As of September 15, 2010, the UNTHSC has been reimbursed
$2,739,484 of the $5,057,900 awarded under the two grants covered by our
audit. We examined the UNTHSC’s accounting records, financial and
progress reports, and operating policies and procedures.

     The results of our audit are discussed in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.

      2
         CODIS is the FBI Laboratory’s Combined DNA Index System and it blends forensic
science and computer technology into an effective tool for solving crime.


                                          -3-
                  FINDINGS AND RECOMMENDATIONS

     We found that (1) expenditure transactions tested were properly
     authorized, included in the approved grant budget, and
     accurately recorded in accounting records; (2) Financial Reports
     tested were accurate and generally submitted in a timely
     manner; and (3) Progress Reports tested were submitted in a
     timely manner. However, we could not verify the accuracy of
     the data included in the UNTHSC’s Progress Reports because the
     supporting documentation was not maintained. Further, we
     identified unallowable salary expenses totaling $28,030 charged
     to the grant for a position that was not included in the approved
     grant budgets, $94,844 for an employee whose salary did not
     comply with a special condition, and $7,859 for unauthorized
     time charged to the grant.

Internal Control Environment

      We reviewed the UNTHSC’s financial management system and single
audit report and interviewed UNTHSC officials to assess UNTHSC’s risk of
non-compliance to laws, regulations, guidelines, and terms and conditions of
the grants.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
the UNTHSC is required to perform a single audit annually. We obtained and
reviewed the most recent single audit and there were two findings of
non-compliance. The first related to a Department of Defense grant and
resulted in $1,006 in questioned costs. The second related to Procurement
and Suspension and Debarment under the National Institutes of Health, and
resulted in no questioned costs. While the two findings of non-compliance
did not relate to Department of Justice funds, we obtained the grantees
responses to the audit report and have determined that all report
recommendations were adequately addressed. In addition, during our
review of the financial management system internal controls, we interviewed
UNTHSC officials and asked about their internal control environment and did
not identify any concerns or weaknesses.

Financial Management System

      Our review of the UNTHSC’s financial management system indicated
that operating procedures were documented and adequate. We did not


                                    -4-
detect any transactions that were not at “arm’s length,” and the UNTHSC
had procedures for verification of invoices, payment of invoices, and
payment of employees.

Drawdowns

      Grant officials stated that drawdowns were based on reimbursements.
We reviewed the accounting records and compared expenditures to the
actual drawdowns for both grants. For Grant Nos. 2008-DN-BX-K157 and
2009-DN-BX-K164 we found that the drawdowns were supported by the
accounting records.

Grant Expenditures

       Based on the accounting records for Grant No. 2008-DN-BX-K157 we
identified a total of 277 transactions from which we selected a sample of 28
transactions totaling $595,458. We found that all 28 transactions in our
sample were properly authorized, classified, supported, and accurately
recorded in the accounting records.

      Additionally, based on the accounting records for Grant No.
2009-DN-BX-K164 we identified a total of 85 transactions from which we
selected a sample of 25 transactions totaling $185,681. We found that all
25 transactions in our sample were properly authorized, classified,
supported, and accurately recorded in the accounting records.

Personnel Costs

      We performed payroll testing to verify the reasonableness, accuracy,
and completeness of salary and fringe benefit transactions charged to the
grants. We judgmentally selected two nonconsecutive pay periods during
the grant period and reviewed the payroll documentation for employees paid
during those periods. We found the salaries and fringe benefits charged to
the grants to be reasonable, accurate, and complete for all but two
employees in our sample. Specifically, time was not properly authorized for
two employee's time for three of the four pay periods selected in our
sample.

      According the OJP financial guide “when recipient employees work
solely on a specific grant award, no other documentation is required.
However, after-the-fact certifications that the employee is working
100 percent of their time on the grant award must be prepared no less
frequently than every 6 months, and must be signed by the employee and
supervisory official having first-hand knowledge of the work performed.”


                                    -5-
       According to the UNTHSC financial records, for Grant No.
2008-DN-BX-K157, for the February 2009 pay period, 1 of the 10 employees
in our sample charged 100 percent of their time to the grant. However, the
required after-the-fact confirmation report did not include this employee. As
a result we consider the time charged to grant number 2008-DN-BX-K157,
for this employee, for the February 2009 pay period to be unauthorized.

       The same condition occurred for Grant No. 2009-DN-BX-K164. For the
June 2010 and August 2010 pay periods the UNTHSC financial records
indicate that 1 of the 10 employees in our sample charged 100 percent of
their time to the grant. However, the required after-the-fact confirmation
reports did not include this UNTHSC employee. As a result we consider this
employee’s time charged to the grant for the June 2010 and August 2010
pay periods to be unauthorized. We are questioning as unallowable $7,859
for the unauthorized time charged to the grants for these two employees.

       UNTHSC officials were unable to provide after-the-fact confirmation for
those charges because they were paid utilizing the UNTHSC old institutional
task payment process which did not require the department to maintain the
after the fact certification. In the fall of 2010, the University of North
Texas updated the task payment procedure and they are considering
including these types of payment as part of their after-the-fact reporting
system.

      We also compared the list of UNTHSC employees paid with grant funds
with positions approved in the grant budgets and found that one position for
a Statistician and Programmer was not included in the approved grant
budgets. As a result, we are questioning the $28,030 charged to the grant
for the position that was not included in the approved grant budgets.

      In addition, during our comparison of UNTHSC employees paid with
grant funds we identified one employee’s salary that exceeded the amount
allowable under a special condition. Special Condition 15 of Grant No.
2008-DN-BX-K157 and Special Condition 20 of Grant No. 2009-DN-BX-K164
states that “No portion of these federal grant funds shall be used towards
any part of the annual cash compensation of any employee of the grantee
whose total cash compensation exceeds 110 percent of the maximum salary
payable to a member of the Senior Executive Service (SES) at an agency
with a Certified SES Performance Appraisal System for that year.” 3



      3
         Effective January 2011 the maximum rate of basic pay for members of the Senior
Executive Service is $179,700.


                                          -6-
      Our examination of UNTHSC payroll records indicated the Program
Director’s salary did not comply with this special condition. As a result, we
are questioning $51,485 for the Program Director’s salary charged to Grant
No. 2008-DN-BX-K157 and $43,359 charged to Grant No.
2009-DN-BX-K164, resulting in total questioned costs of $94,844.

      Based on conversations with UNTHSC officials, questions were raised
as to the interpretation of the special condition. UNTHSC officials told us
that they had phone conversations with OJP Program Managers regarding
this subject and were told a percentage of an employee’s salary could be
charged to the grant as long as the percentage was applied to the 110
percent maximum SES salary amount. The UNTHSC officials did not have
any documentation to support these conversations.

      We contacted OJP officials and were told by the Office of the Chief
Financial Officer (OCFO) that the language of the special condition has been
modified to permit salaries exceeding the 110 percent of the maximum SES
amount to be charged to a grant up to the maximum amount. The OCFO
also stated that the modified special condition only applies to subsequent
awards. Based on our discussions with the OCFO, the salary charged to the
grants for the Program Director’s salary is unallowable.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. We compared the
amounts charged to each budget category per the accounting records to the
OJP approved budget. We found that all amounts charged were within the
budget amounts allowable by OJP.

Indirect Costs

      Indirect costs were approved in both grant budgets. We reviewed the
accounting records for grants and found that for Grant No.
2008-DN-BX-K157 there were a total of 18 indirect cost transactions. We
selected a sample of 10 indirect cost transactions and found all 10




                                     -7-
transaction calculations were generally accurate. 4 For Grant No.
2009-DN-BX-K164 we identified one indirect cost transaction and found it
was correctly charged to the grant.

Reports

      We reviewed the last four quarterly Financial Reports and found that
they were generally timely and accurate. We also reviewed the UNTHSC’s
annual Progress Reports from the last 2 years and determined they were
timely and included required program performance statistical data. As for
the accuracy of the Progress Reports, the grantee did not maintain any
source documentation and the source documentation could not be recreated
because the database that the information comes from is a dynamic system,
which means the data is constantly changing. The UNTHSC indicated that
going forward they will print reports and take screen shots at the time the
Progress Reports are compiled to document the information reported in the
Progress Reports.

Compliance with Grant Requirements

       To determine if the UNTHSC was in compliance with the special
conditions of the grants, we reviewed the award documentation and
identified the special conditions placed on the grantee. We surveyed
UNTHSC officials regarding the special conditions identified in the award
documentation. We did take exception to the UNTHSC compliance with a
special condition and this was discussed in detail under Personnel Costs.




       4
         Due to an accounting process limitation, UNTHSC did not fully segregate the
applicable project-related expenditures to determine indirect costs charged to Grant No.
2008-DN-BX-K157. Instead, UNTHSC applied a reduced indirect cost rate to all project
related expenditures. This approach resulted in charging indirect costs to the grant in an
amount that conformed with the approved budget. This process was changed to fully
segregate and apply the approved indirect cost rate to applicable transactions for Grant No.
2009-DN-BX-K164.



                                            -8-
Program Performance and Accomplishments

     According to the award documentation, the Goals and Objectives of
Grant Nos. 2008-DN-BX-K157 and 2009-DN-BX-K164 were to:

   •   Perform STR and mtDNA testing of unidentified human remains and
       family reference samples, and upload the DNA profiles into the FBI’s
       National DNA Index System. 5

   •   Provide anthropological and odontological analysis of skeletal remains
       on all applicable cases requested to provide the most appropriate
       samples for DNA analysis. 6

   •   Conduct field testing of new technologies designed to increase both the
       throughput and the amount of genetic information obtained from
       degraded and compromised skeletal remains.

   •   Provide DNA kits for the collection of family reference samples and
       submission kits for unidentified human remains.

   •   Continuing its field testing of new technologies designed to increase
       the amount of genetic information obtained from degraded and
       compromised skeletal remains. These new technologies will help to
       increase this facilities sample throughput capabilities.

      Grant No. 2008-DN-BX-K157 also contained an objective to perform
STR and mtDNA analysis on a minimum of 675 unidentified human remains
and 2,025 family reference samples collected by state or local law
enforcement agencies.

      Finally, Grant No. 2009-DN-BX-K164 included an objective to perform
STR and mtDNA analysis on a minimum of 700 unidentified human remains
and 1,800 family reference samples collected by state or local law
enforcement agencies.

      To evaluate the program performance and accomplishments of Grant
Nos. 2008-DN-BX-K157 and 2009-DN-BX-K164, we interviewed UNTHSC

       5
           Nuclear DNA analysis targets areas of the nuclear DNA called Short Tandem Repeats
(STRs) for entry into CODIS. Mitochondrial DNA (mtDNA) is found in the mitochondria of the
cell and is generally extracted from biological items of evidence such as hair, bones, and
teeth.
       6
          Odontology is a science dealing with teeth, their structure and development, and
their diseases.


                                            -9-
officials and surveyed two law enforcement officials, the end users of the
program. According to UNTHSC officials, they look at the performance
measurement data included in the progress report metrics to see if they are
achieving the goals and objectives of the program. According to the final
progress report for Grant No. 2008-DN-BX-K157, 1,084 unidentified human
remains samples were analyzed while 621 were entered into CODIS. In
addition, 1,738 family reference samples were analyzed. For Grant No.
2009-DN-BX-K164, according to progress report number 2, which covers
May to June 2010, the UNTHSC had completed analysis on 162 unidentified
human remains samples and 221 family reference samples.

       To obtain feedback from individuals benefiting from the Using DNA
Technology to Identify the Missing grant we contacted two law enforcement
officials connected with the Tarrant County Medical Examiner's Office and
asked them to provide feedback on the program by completing a
questionnaire. Both of the officials surveyed stated that the service they
received was the identification of human remains. Their offices submit
human remains samples for analysis and upload these samples to the CODIS
national database to be matched with other family reference samples they
submit. Based on these responses, we concluded the services provided were
consistent with the grant program goals and objectives.

       Both individuals surveyed also stated that the program was effective in
meeting the needs of the end users. One respondent explained that many of
the unidentified human remains they come across are from elderly persons
whose bodies are so badly decomposed that they would not be able to
identify them without the DNA services the UNTHSC offers. The second
respondent told us that using UNTHSC's services have helped make positive
identifications on both old and new cases.

      Overall, both officials stated that the program and grantee were
"Excellent." As a result, we did not find any indication that the UNTHSC has
not accomplished the broad goals of Grant No. 2008-DN-BX-K157 and is not
on track to meet the broad goals of Grant No. 2009-DN-BX-K164. However,
we cannot determine if specific statistical objectives were met because the
grantee did not maintain any source documentation for the statistical data
included in the Progress Reports.


Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported and in
accordance with applicable laws, regulations, guidelines, terms and


                                    - 10 -
conditions of the grants, and to determine program performance and
accomplishments.

      We determined that Financial Reports tested were generally submitted
on time and were accurate. Progress Reports tested included program
performance statistical data and were submitted on time. However, we
could not determine if specific statistical objectives were met because the
grantee did not maintain any source documentation for the statistical data
included in the Progress Reports.

      We found expenditure transactions tested were properly authorized,
included in the approved grant budget, and accurately recorded in the
accounting records. We found the salaries and fringe benefits charged to
the grants to be reasonable, accurate, and complete for all but two
employees in our sample. Time was not properly authorized for two
employee's time, for three of the four pay periods selected in our sample.
As a result, we are questioning $7,859 for the unauthorized time charged to
the grant. In addition, we found that one position paid with grant funds was
not included in the approved budgets. As a result, we are questioning the
$28,030 charged to the grant for this position. We also found one
employee’s salary did not comply with a special condition and as a result we
are questioning $94,844 charged to the grant for this employee’s salary.


Recommendations

     We recommend that the OJP:

1.   Remedy the $28,030 in questioned cost for the position paid with
     grant funds that was not included in the approved grant budgets.

2.   Remedy the $94,844 in questioned cost for the salary paid with grant
     funds that did not comply with a special condition.

3.   Remedy the $7,859 in questioned costs for the unauthorized time
     charged to the grants.

4.   Ensure that UNTHSC maintains proper source documentation for the
     information included in the Progress Reports.




                                   - 11 -
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel and indirect
costs; (4) budget management and control; (5) matching; (6) property
management; (7) program income; (8) financial status and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of subgrantees and contractors.
We determined that indirect costs, matching costs, property management,
program income, subgrantees, and contractors were not applicable to
these grants.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the initial Using DNA Technology to Identify the Missing grant on
October 01, 2008, through September 24, 2010, when the last Financial
Report was submitted.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

       In conducting our audit, we performed sample testing for grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We selected a sample of 28 grant
expenditures for Grant No. 2008-DN-BX-K157 and 25 grant expenditures for
Grant No. 2009-DN-BX-K164. This non statistical sample design does not
allow projection of the test results to the universes from which the samples
were selected.




                                    - 12 -
      In addition, we reviewed the timeliness and accuracy of Financial
Reports and Progress Reports and evaluated performance to grant
objectives; however, we did not test the reliability of the financial
management system as a whole.




                                    - 13 -
                                                                            APPENDIX II

             SCHEDULE OF DOLLAR-RELATED FINDINGS7
      QUESTIONED COSTS:                  AMOUNT   PAGE
       Unallowable Payroll Costs          $28,030   6
       Unallowable Salary Costs           $94,844   7
       Unallowable labor Costs            $ 7,859   6
      TOTAL DOLLAR-RELATED FINDINGS     $130,733




       7
          Questioned Costs are monies spent that, at the time of the audit, do not comply
with legal requirements, or are unsupported, unbudgeted, unnecessary, or unreasonable.
They can be recoverable or unrecoverable.


                                           - 14 -
                                                                               APPENDIX III

                     OJP RESPONSE TO THE DRAFT REPORT


                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




March 23, 2011


MEMORANDUM TO:               David M. Sheeren
                             Regional Audit Manager
                             Office of the Inspector General
                             Denver Regional Audit Office

                                /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             National Institute of Justice Grants Awarded to the University of
                             North Texas Health Science Center, Fort Worth, Texas

This memorandum is in response to your correspondence, dated February 24, 2011, transmitting
the subject draft audit report for the University of North Texas Health Science Center
(UNTHSC). We consider the subject report resolved and request written acceptance of this
action from your office.

The report contains four recommendations and $130,734 in questioned costs. The following is
the Office of Justice Programs’ (OJP’s) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP remedy the $28,030 in questioned costs for the position
       paid with grant funds that was not included in the approved grant budgets.

       We agree with the recommendation. We will coordinate with UNTHSC to remedy the


                                             - 15 -
       $28,030 in questioned costs related to salary expenditures charged to cooperative
       agreement 2008-DN-BX-K157, for a position which was not in the approved budget for
       the agreement.

2.     We recommend that OJP remedy the $94,845 in questioned costs for the salary paid
       with grant funds that did not comply with a special condition.

       We agree with the recommendation. The special condition related to maximum salaries
       was very restrictive and did not permit any salary charges to the grant if the annual salary
       exceeded 110 percent of the Senior Executive Service (SES) salary, unless prior approval
       was granted by OJP’s Assistant Attorney General.

       The special condition was subsequently modified in fiscal year 2010, to permit salary to
       be charged up to the maximum SES salary, with the excess to be paid with non-Federal
       funds; however, there were no provisions for this change to be retroactive. Therefore,
       we will coordinate with UNTHSC to remedy the $94,845 in questioned costs charged to
       cooperative agreements 2008-DN-BX-K157 and 2009-DN-BX-K164, related to the salaries
       paid in violation of the maximum salaries special condition.

3.     We recommend that OJP remedy the $7,859 in questioned costs for the
       unauthorized time charged to the grant.

       We agree with the recommendation. We will coordinate with UNTHSC to remedy
       the $7,859 in questioned costs related to unauthorized time charged to cooperative
       agreement 2009-DN-BX-K164.

4.     We recommend that OJP ensure that UNTHSC maintains proper source
       documentation for the information included in the progress reports.

       We agree with the recommendation. We will coordinate with UNTHSC to obtain
       a copy of procedures developed and implemented to ensure that proper source
       documentation is maintained to support the information included in the progress reports;
       and the documentation is maintained for future auditing purposes.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Diane Hughes
       Office Director, Office of Operations
       National Institute of Justice




                                               - 16 -
      Charles Heurich
      Program Manager
      National Institute of Justice


cc:   OJP Executive Secretariat
      Control Number 20110227




                                      - 17 -
                                                                                             APPENDIX IV

                    GRANTEE RESPONSE TO THE DRAFT REPORT

March 17, 2011



David M. Sheeren
Regional Audit Manager
U.S. Department of
Justice Office of the
Inspector General
Denver Regional Audit
Office 1120 Lincoln,
Suite 1500 Denver, CO
80203

SUBJECT:          Draft Audit Report, Audit of The Office of Justice Programs National Institute of
                  Justice Grants Awarded to the University of North Texas Health Science Center
                  Fort Worth, Texas

Dear Mr. Sheeren,

This letter is submitted as the written response of the University of North Texas Health Science Center at
Fort Worth ("UNTHSC") to the above-referenced draft audit report dated February 25, 2011. The audit
conducted was related to Office of Justice Programs (OJP)" National Institute of Justice grants awarded to
UNTHSC under grant numbers 2008-DN-BX-K157 and 2009-DN-BX-K164.

The draft audit report on page 4 sets forth three findings in support of UNTHSC's grant management in
general, but questions three grant expenditures (the three grant expenditures have a combined total value of
$130,734). Based on the three questioned expenditures, four recommendations are made on page 11 of the
audit report. The following is UNTHSC's response to the four "remedy" recommendations and the questioned
costs. For ease of review, the recommendation being addressed is restated in bold and is followed by our
response.

Recommendation 1: Remedy the $28,030 in questioned cost for the position paid with grant funds that was
not included in the approved grant budgets.

The UNTHSC does not concur with recommendation number 1 because the position in question was
not required to be identified in advance to OJP in order to be covered by the grant.

In reviewing both Special Condition 14 set forth in the Cooperative Agreement (Attachment 1) as well as
Chapter 5, Adjustments to Awards, from the OJP Financial Guide (Attachment 2), OJP does not have a
requirement that it has to be notified every time a position is added under a grant. In regard to the particular
position in question, we do not believe the auditors have presented an instance of non-compliance for the
following reasons:
    •    The position in question was not key personnel and did not require prior approval
    •    Payment of the salary for this position did not require a budget modification greater than 10%



                                                      - 18 -
   •    The duties assigned to this position did not alter the scope of the grant. Programmatic activities did
        not change with the addition of this position (this position just helped to ensure that the originally
        stated programmatic activities were successful); the original purpose of the project did not change (in
        fact, this position was necessary to complete the originally stated purpose); there wasn't a change to
        the project site; there was not an organizational change; and there was not a change in scope that
        affected the budget in a way that required budget modification.

 Based on these criteria, our opinion is that prior approval from OJP for this position was not necessary.
Therefore, we consider the expenses associated with this position to be fully allowable.

This position was created after UNTHSC found some computational errors and false associations made using
the FBI's new CODlS 6.0 software that could have impacted the transmission of data. UNTHSC contacted
members of the FBI's CODlS Unit and informed them of this problem, but changes to the FBI's software were
                            th
not adopted. On January 5 , 2009, a bioinformatician with expertise in population genetics and computational
genomics, was hired as a postdoctoral fellow at UNTHSC. He was tasked with developing software that would
take into account the errors and false associations caused by the FBI's software and still allow for accurate
transmission of data. The bioinformatician was not listed as personnel in our original submission since he was
not an employee at the time or even a prospective employee. When he was hired, the task assigned to him on
the grant was well within the scope of UNTHSC's original grant award, which was to perform DNA analysis of
human remains and family reference samples, enter the data into CODlS, make the appropriate associations,
and accurately report the results to Medical Examiners and Coroners making the official identifications.

Recommendation 2: Remedy the $94,845 in questioned cost for the salary paid with grant funds that did not
comply with a special condition.


The UNTHSC does not concur with recommendation number 2.

In reviewing Special Condition 15 set forth in the Cooperative Agreement (Attachment 1), we do not believe
that we are non-compliant with the intention of the condition. The language regarding Special Condition number
15 has been clarified by OJP to permit salary to be charged up to the maximum, with any amount in excess of
the maximum to be paid with non-federal funds. We consider this clarification as applying to the awards being
audited.

The DOJ Auditors have interpreted Special Condition 15 to mean that UNTHSC may not charge salary to the
OJP grants for any University employee paid in excess of 110% of the Senior Executive Service (SES)
maximum. We believe that the clarification of Special Condition 15, published in 2010, was meant to strengthen
the wording of the condition, not to reverse it. The practical purpose of the clarification is to ensure that
universities are not prevented from using senior staff on DOJ grants. We believe our position is consistent with
the OJP Program Officer's interpretation of Special Condition 15 as set forth in an email dated January 25,
2011 (Attachment 3) and applies to the awards being audited. To apply any other interpretation of Special
Condition 15 would penalize UNTHSC and other institutions of higher education across the nation as it would
discriminate against senior faculty involved in OJP awards by not allowing reimbursement for effort performed
on the award. We do not believe that it is the intention of OJP to discriminate against senior faculty based on
salary rates as is evidenced by their later clarifying statement. For this reason, we believe the proportional
amount, as charged, was correct at the level of 110% of SES and all salary paid in excess of that rate has been
paid from non-federal funds and properly supported in our after the fact time and effort reports. Our accounting
for effort of the salary cap is based on acceptable standards throughout institutions of higher education and
guidance from Office of Management and Budget circulars as well as other federal agencies with salary caps.


                                                     - 19 -
Recommendation 3: Remedy the $7,859 in questioned costs for the unauthorized time charged to the grant.

The UNTHSC does not concur with recommendation number 3 because the costs in question were
authorized and were necessary in order to pay for services provided on the grant project.

The costs in question were authorized by the principal investigator (PI) via a task payment process using an
UNTHSC internal payroll form to approve work being done on the project. The PI is confident the work was
satisfactorily performed as he supervised both of the individuals providing service and the results of the
tasks they were assigned are included in the semi-annual reports under the anthropological laboratory
efforts as well as any progress described in the field testing section of the reports.
The PI followed standard institutional policy in place at the time the costs in question were incurred. His
approval of this payment was documented at the onset of the task project, the work was completed to the
benefit of this OJP project, properly charged to the accounting system against this OJP project and we view
the costs to be allowable. Although we do not concur with the recommendation, the institution has changed
the policy regarding task payments to include additional supporting documentation.

Recommendation 4: Ensure that UNTHSC maintains proper source documentation for the information
Included in the Progress Reports.

The UNTHSC concurs with recommendation number 4.

As explained on page 10 of the draft audit report, the OIG could not determine if specific statistical objectives of
the grant were met because UNTHSC did not maintain any source documentation for the statistical data
included in the progress reports. UNTHSC has implemented additional steps in Dr. Eisenberg's laboratory by
revising the written laboratory policy to read, ''The performance measures and metrics are tabulated quarterly
by the Technical Leaders, CODlS Administrator and Operations Manager. Due to the dynamic nature of the
laboratory information system and the CODlS database, much of the electronic data generated cannot be re-
created at a later date. This information is either printed as a "screen shot" or the numbers tabulated on a given
date are entered into the appropriate spreadsheet. The printed information contains the generation date and
initials of the person collating the data. This documentation is forwarded to the Operations Manager no later
than 7 days following the end of each quarter....". This change in policy means that Dr. Eisenberg's lab is now
maintaining source documentation of the data collected.

We appreciate the opportunity to review and comment on the draft audit report. If you have any questions or
require additional information, please contact the undersigned via email at LeAnn.Forsberg@unthsc.edu.

Sincerely,

LeAnn S. Forsberg Director Office of Grant and Contract Management

cc: Linda J. Taylor, Lead Auditor, Audit Coordination Branch

Charles Heurich, Program Manager




                                                      - 20 -
                                                                 APPENDIX V



              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of this audit
report to the Office of Justice Programs (OJP) and to the University of North
Texas Health Science Center (UNTHSC). Their responses are incorporated in
Appendices III and IV, respectively of this final report. The following
provides the OIG analysis of the responses and a summary of actions
necessary to close the report.

Analysis of the UNTHSC Response

      In response to our audit report, the UNTHSC did not concur with three
of the four recommendations made. The first recommendation was for OJP
to remedy the $28,030 in questioned cost for the position paid with grant
funds that was not included in the approved grant budgets. The UNTHSC
response included the following;

      The UNTHSC does not concur with recommendation number 1
      because the position in question was not required to be
      identified in advance to OJP in order to be covered by the grant.

      In reviewing both Special Condition 14 set forth in the
      Cooperative Agreement as well as Chapter 5, Adjustments to
      Awards, from the OJP Financial Guide, OJP does not have a
      requirement that it has to be notified every time a position is
      added under a grant. In regard to the particular position in
      question, we do not believe the auditors have presented an
      instance of non-compliance for the following reasons:

      •     The position in question was not key personnel and did not
            require prior approval
      •     Payment of the salary for this position did not require a
            budget modification greater than 10 percent
      •     The duties assigned to this position did not alter the scope
            of the grant. Programmatic activities did not change with
            the addition of this position (this position just helped to
            ensure that the originally stated programmatic activities


                                     - 21 -
            were successful); the original purpose of the project did
            not change (in fact, this position was necessary to
            complete the originally stated purpose); there wasn't a
            change to the project site; there was not an organizational
            change; and there was not a change in scope that affected
            the budget in a way that required budget modification.

      This position was created after UNTHSC found some
      computational errors and false associations made using the FBI's
      new CODlS 6.0 software that could have impacted the
      transmission of data. UNTHSC contacted members of the FBI's
      CODlS Unit and informed them of this problem, but changes to
                                                         th
      the FBI's software were not adopted. On January 5 , 2009, a
      bioinformatician with expertise in population genetics and
      computational genomics, was hired as a postdoctoral fellow at
      UNTHSC. He was tasked with developing software that would
      take into account the errors and false associations caused by the
      FBI's software and still allow for accurate transmission of data.
      The bioinformatician was not listed as personnel in our original
      submission since he was not an employee at the time or even a
      prospective employee. When he was hired, the task assigned to
      him on the grant was well within the scope of UNTHSC's original
      grant award, which was to perform DNA analysis of human
      remains and family reference samples, enter the data into
      CODlS, make the appropriate associations, and accurately report
      the results to Medical Examiners and Coroners making the
      official identifications.

       According to the OJP financial guide, a grantee may make minor
changes in methodology approach, or other aspects of the grant to expedite
achievement of the grant’s objectives, without initiating a grant adjustment
notice. However, changes in scope, duration, activities, or other significant
areas are changes that require prior approval from the bureau or program
office through a grant adjustment notice. The addition of a new
bioinformatician position charged to the grant required approval from OJP
because it was a significant change in the program activities and budget.
Both these types of changes require Grant Adjustment Notice approval
according to the OJP Financial Guide.

      Further, in its response, UNTHSC refers to requirements related to
changes of key staff. This reference describes the need to inform the
granting agency of changes to personnel identified in its grant application,
but the rules do not allow for significant changes or additions of positions
without OJP approval. In our judgment, prior approval from the bureau or


                                    - 22 -
program office, through a grant adjustment notice should have been
obtained. OJP agreed with this recommendation.

      The second recommendation was for OJP to remedy the $94,844 in
questioned cost for the salary paid with grant funds that did not comply with
a special condition. The UNTHSC response included the following;

           The UNTHSC does not concur with recommendation number 2.

       In reviewing Special Condition 15 set forth in the Cooperative
       Agreement, we do not believe that we are non-compliant with
       the intention of the condition. The language regarding Special
       Condition number 15 has been clarified by OJP to permit salary
       to be charged up to the maximum, with any amount in excess of
       the maximum to be paid with non federal funds. We consider
       this clarification as applying to the awards being audited.

      As stated on page 6 of the report, Special Condition 15 of Grant No.
2008-DN-BX-K157 and Special Condition 20 of Grant No. 2009-DN-BX-K164
states that “No portion of these federal grant funds shall be used towards
any part of the annual cash compensation of any employee of the grantee
whose total cash compensation exceeds 110 percent of the maximum salary
payable to a member of the Senior Executive Service (SES) at an agency
with a Certified SES Performance Appraisal System for that year.” Our
examination of UNTHSC payroll records indicated the Program Director’s
salary did not comply with this special condition, it exceeded 110 percent of
the maximum salary payable to a member of the SES.

        The NIJ Program Manager told UNTHSC officials that a percentage of
an employee’s salary could be charged to the grant as long as the
percentage was applied to the 110 percent maximum SES salary amount.
However, we contacted OJP’s Office of the Chief Financial Officer (OCFO),
which is responsible for developing the OJP financial guide to request
clarification on the rule. 8 We were informed by the OCFO that the special
condition had been modified to permit salaries exceeding the 110 percent of
the maximum SES amount. Therefore, the special condition for the awards
in question were applied under the previous method, which did not allow any
portion of OJP federal grants to be applied to any part of a salary that
exceeded 110 percent of the maximum SES amount. In its written response
to our draft report, OJP agreed with our recommendation.


       8
         The OJP Financial Guide serves as the primary reference for financial
management and grants administration for all recipients and their subrecipients of federal
grant programs administered by OJP


                                           - 23 -
      The third recommendation was for OJP to remedy the $7,859 in
questioned costs for the unauthorized time charged to the grant. The
UNTHSC response included the following;

      The UNTHSC does not concur with recommendation number 3
      because the costs in question were authorized and were
      necessary in order to pay for services provided on the grant
      project.

      The costs in question were authorized by the principal
      investigator (PI) via a task payment process using an UNTHSC
      internal payroll form to approve work being done on the project.
      The PI is confident the work was satisfactorily performed as he
      supervised both of the individuals providing service and the
      results of the tasks they were assigned are included in the semi-
      annual reports under the anthropological laboratory efforts as
      well as any progress described in the field testing section of the
      reports.

      As stated on page 5 of the report, according to the OJP financial guide,
“when recipient employees work solely on a specific grant award, no other
documentation is required. However, after-the-fact certifications that the
employee is working 100 percent of their time on the grant award must be
prepared no less frequently than every 6 months, and must be signed by the
employee and supervisory official having first-hand knowledge of the work
performed.“ For the four pay periods we reviewed, two of the UNTHSC
employee’s spent 100 percent of their time working on the grant and they
were not included in the after-the fact certification reports. As a result the
UNTHSC is not in compliance with the OJP financial guide and the salary
charged to the grant for these two employees’, for the pay periods reviewed,
were unauthorized and were questioned. OJP agreed with our
recommendation.


Summary of Actions Necessary to Close Report

   1. Resolved. OJP concurred with our recommendation to remedy the
      $28,030 in questioned cost for the position paid with grant funds that
      was not included in the approved grant budgets. This
      recommendation can be closed when we receive documentation the
      questioned costs have been remedied.

   2. Resolved. OJP concurred with our recommendation to remedy the
      $94,844 in questioned cost for the salary paid with grant funds that


                                    - 24 -
  did not comply with a special condition. This recommendation can be
  closed when we receive documentation the questioned costs have
  been remedied.

3. Resolved. OJP concurred with our recommendation to remedy the
   $7,859 in questioned costs for the unauthorized time charged to both
   Grant No. 2008-DN-BX-K157 and Grant No. 2009-DN-BX-K164. This
   recommendation can be closed when we receive documentation the
   questioned costs have been remedied.

4. Resolved. OJP concurred with our recommendation to ensure that
   UNTHSC maintains proper source documentation for the information
   included in the Progress Reports. This recommendation can be closed
   when we receive documentation on the procedures developed and
   implemented to ensure that proper source documentation will be
   maintained to support the information included in the progress reports.




                                 - 25 -
